                                                      UNITED STATES
                                 SECURITIES AND EXCHANGE COMMISSION
                                               WASHINGTON, D.C.         20549


    OFFICE OF
INSPECTOR GENERAL                                   MEMORANDUM

                                                      March 1,2010

          TO:            Carlo V. di Florio, Director, Office of Compliance Inspections and
                              Examinations
                         Charles L. Boucher, Director and Chief Information Officer, Office of
                              Information Technology

          FROM:          H. David Kotz, Inspector General, Office of Inspector Genera/1/)j('

          COPY:          Kayla Gillan, Deputy Chief of Staff, Office of the Chairman
                         John Walsh, Associate Director/Chief Counsel, Office of Chief
                              Counsel, Office of Compliance Inspections and Examinations

          SUBJECT:           Management Alert - Data Security Vulnerabilities, Report No. 477


          Three recent investigations undertaken by the Securities Exchange Commission
          (SEC or Commission), Office of Inspector General (OIG) have raised concerns
          about data security at the SEC. In 2008 and 2009, the OIG undertook two
          investigations involving the unauthorized release of non-public records available
          pn the Office of Compliance Inspections and Examinations (OCIE) intranet sites
          and/or shared network drives. In a third investigation, the OIG learned that files
          pertinent to our investigation had been deleted or removed from an OCIE shared
          network drive and have not been recovered. Despite the DIG conducting
          extensive e-mail review and witness interviews, the sources of the release of
          non-public information and file removal have not be identified because OCIE's
          intranet sites and shared network drives do not employ auditing 1 systems.

          The purpose of this Management Alert is to present our concerns to you in
          writing. We ask that you respond within five business days of receipt of this letter
          and identify the actions your offices have taken, or plan to take, to address two
          significant areas of data security concern:

                     1. Vulnerability of the OCIE intranets and
                     2. Vulnerability of the OCIE shared network drives.

          This review was not conducted in accordance with government auditing
          standards.


          1   Auditing as used in this Management Alert refers to blocking, tracking, or controlling data.

          Data Security Vulnerabilities                       1                                  March 18,2010
          Report NO.477
BACKGROUND

Summary

The SEC does not have in place an auditing system for OCIE intranet sites or its
shared network drives. OCIE’s intranet sites and shared network drives store
extensive non-public information, including inspection and examination reports,
deficiency letters, and other documents containing confidential registrant
information. Approximately 2,000 employees have access to OCIE’s intranet
sites or shared network drives. However, use of the OCIE intranet sites and
shared network drives is not audited, which allows users to view, print, copy,
download, move, edit, or delete documents and files without detection. 2

1.      The OCIE Intranet Sites

The OCIE intranet sites are internal Commission websites designed to allow for
data sharing and to provide historical reference and training materials for
inspections and examinations. OCIE has a central intranet site, an intranet site
containing training materials, and additional intranet sites for certain sub-groups
within OCIE. The OCIE intranet sites contain confidential non-public information,
such as inspection and examination reports, communications with registrants,
deficiency letters, and policies and procedures for examination staff. Many of
these documents are also stored on OCIE’s shared network drives.

According to information provided by OCIE’s information technology staff and
OCIE’s Office of Chief Counsel, the OCIE intranet sites pose a serious security
threat as they are accessible to nearly 2,000 Commission employees, including
over 1,000 OCIE employees and over 1,300 Division of Enforcement staff. 3
According to OCIE’s information technology staff, the OCIE intranet sites are
vulnerable to having information, such as registrant data, misappropriated by
OCIE intranet site users. 4

Despite that many OCIE intranet site users do not have full access rights to the
sites, limited access is sufficient to pose a serious data security risk. Many OCIE
intranet site users have “read-only” access, meaning that they are unable to alter
the text of documents on the OCIE Intranet sites. However, read-only users are
still able to view, print, copy, and download information. Because use of the
OCIE intranet sites is not audited, those with access to the OCIE intranet sites

2
  Controls over the OCIE intranets and shared network drives are interrelated because many of
the documents available on the shared network drives are also available on the intranet.
3
  The central OCIE intranet site containing registrant materials is accessible to approximately
1,000 OCIE staff, 16 executive staff, 124 Division of Investment Management staff, and 17
Division of Trading and Markets staff. The OCIE intranet site containing non-public OCIE training
materials is available to OCIE staff and approximately 1,325 Division of Enforcement staff.
4
  OCIE information technology staff stated that they are aware of at least one data theft.
Data Security Vulnerabilities                     2                                   March 1, 2010
Report No. 477
are able to take data and other information from the OCIE intranet sites without
detection.

2. OCIE Shared Network Drives

Shared network drives 5 are depositories for shared projects for each office or
division. According to OCIE’s Office of Chief Counsel, the shared network drives
promote knowledge and information sharing by allowing open access to
employees with rights to a particular drive. The OCIE shared network drives hold
documents containing highly confidential information, including examination and
inspection reports, electronic productions from registrants, correspondence, work
papers, registration materials, spreadsheets, and work product. Each regional
office has its own shared network drive. Most users can view, print, copy,
download, edit, move, and even delete files from the shared drives.

Currently the SEC does not audit who accesses the shared network drives or
who deletes or alters files contained therein. When items are deleted from
shared network drives, they are sent to a recovery bin with limited storage
capacity. Once the bin’s capacity is reached, the older files are purged. In
OCIE, the purge occurs in less than      days. Once purged, those files often
cannot be recovered. 6

Recent Incidents

The following three recent OIG investigations have involved the removal or
deletion of documents from OCIE’s shared network drives or the unauthorized
release of confidential information that was stored on OCIE’s intranet sites and/or
shared network drives. The sources of these data security breaches have not
been identified because OCIE’s intranet sites and shared network drives do not
employ an auditing system.

3.      Documents Deleted from an OCIE Shared Network Drive

As part of Case No. OIG-496, a staff accountant discovered in January 2009 that
all of the files regarding a particular registrant were missing from an OCIE shared
network drive. The missing files included work product generated by OCIE staff,
such as an examination report, interoffice memoranda, correspondence, and
relevant e-mail gathered during an 18-month examination.

The files were necessary for an OIG investigation involving serious allegations
about the registrant and the SEC’s actions in response to those allegations. The

5
  The shared network drives are often referred to as the “J: drive,” but within SEC Headquarters, 

the shared network drives are comprised of the J:, K:, and L: drives. 

6
  Forensic experts can be retained to attempt to recover the files, but it is very costly and may not 

be successful.

Data Security Vulnerabilities                    3                                      March 1, 2010
Report No. 477
Office of Information Technology was unable to determine who deleted the files
or when the files were deleted.

4. OCIE Examination Report Leaked to the Press

At the request of an SEC registrant,                                         , the
OIG opened PI No. 09-62, a preliminary inquiry into the leak of confidential
e-mail to the Wall Street Journal. The OIG found that the excerpts of the
confidential e-mail that had appeared in the Wall Street Journal in
were from e-mail provided to OCIE during a routine examination of        and had
been included in an OCIE examination report of Bernard L. Madoff Investment
Securities LLC.

The OCIE examination report was stored on the OCIE intranet site and an OCIE
shared network drive and had been circulated to a variety of officials within the
Commission. The OIG reviewed the e-mail of report recipients, but has been
unable to narrow down and locate the source of the leak because the OCIE
intranet and shared network drives were unaudited.

     was outraged by the public release of its internal e-mail communications.
Personnel from OCIE’s Office of Chief Counsel have reported that         was less
cooperative in a recent examination and used the leak of its confidential e-mail
as a reason for not producing requested documents.

5. Non-public Version of an SEC Report Leaked to the Press

In Case No. OIG-500, the OIG investigated the disclosure of a non-public version
of an SEC report containing issues identified in the SEC staff’s examination of
select nationally recognized statistical rating organizations (NRSROs). The SEC
report was harshly critical of the NRSROs. The public version of the SEC’s
report contained the critical findings, but redacted the names of the NRSROs and
quotations from confidential e-mail because the SEC staff had assured the
participating NRSROs that their identities would be kept confidential. However,
the non-public version of the report that was leaked to the Wall Street Journal in
August 2008 contained the names of the NRSROs examined, the identities of
certain individuals, and excerpts from confidential e-mail.

The non-public version of the report provided to the Wall Street Journal had been
stored on an OCIE Shared Network Drive and was circulated to a small number
of people. Despite reviewing over 130,000 emails and taking the testimony of 25
SEC employees, the OIG was unable to identify the source of the leak because
drafts of the report were available on an OCIE shared network drive and could
have been accessed and printed by any OCIE employee without detection.



Data Security Vulnerabilities           4                             March 1, 2010
Report No. 477
The OIG investigation found that the Wall Street Journal’s publication of this
information was disturbing to the firms and embarrassing to the SEC staff who
had assured the participating NRSROs of confidentiality.

Effects

The failure to audit the use of the OCIE intranet and shared network drives has
allowed the sources of the unauthorized release of confidential non-public
information and the deletion/removal of OCIE files to remain undetected.

Leaks, such as those discussed above, have negatively impacted the
relationship of the SEC with its registrants. Registrants regularly provide the
SEC with confidential information, and the release of this information to the press
may cause registrants to be reluctant to cooperate in SEC examinations and
investigations, for fear that their confidential information will become public.
Moreover, failure to audit the use of OCIE’s shared network drives and intranet
sites poses a grave data security concern because it makes registrant data
vulnerable to undetected theft. Hence, we believe that prompt action should be
taken to address these data security vulnerabilities.




Data Security Vulnerabilities            5                             March 1, 2010
Report No. 477
                                         Memorandum

Date:        March 10, 2010

To:          David Kotz, Inspector General, OIG

From         Charles Boucher, Chief Information Officer,   Ol~.k;~
CC:          Carlo di Florio, Director, OCIE
             Kayla Gillan, Deputy Chief of Staff, Office of the Chairman
             John Walsh, Associate Director and Chief Counsel, OCIE
             Diego Ruiz, Executive Director, OED

Subject:     OIG Management Alert - Data Security Vulnerabilities, Report #477


  This memo acknowledges receipt of the subject OIG Management Alert, dated March 1,
2010. In summary, the OIG is requesting that the system feature of auditing access to files on
the shared drives and intranet for OCIE be turned on so that it may be easier to identify who
has used files for unauthorized purposes. There are a number of different options on how
auditing could be implemented, and a substantial investment is likely to be required due to the
additional processing, storage, access tools, and staff resources to support such an activity. In
addition, management needs to consider whether the benefits of auditing file access justify the.
investment, and if so whether it should be implemented beyond OCIE, as well as if there are
any business process changes which should be considered.

  OIT has begun analysis on the technology aspects of the OIG's request and will work with
the businesses and agency management to decide a course of action.
                                           MEMORANDUM


TO:            David Kotz, Inspector General, Office of Inspector General ("OIG")

FROM:          Carlo di Florio, Director, Office of Compliance Inspections and Examinations ("OCIE")
               John Walsh, Associate Director - Chief Counsel, OCIE     -4vV p,.", ??-t!-
               Greg Cobert, Assistant Director, Information Technology, OCIE
               Steve Haupt, Branch Chief, Information Technology, OCIE
               Kris Easter, Assistant Director, OCIE

CC:            Charles Boucher, Chief Information Officer, Office of Information Technology ("OIT")

RE:            Office of Compliance Inspections and Examinations' Response to the Office ofInspector
               General's Management Alert, Data Security Vulnerabilities, Report No. 477

DATE:          March 11,2010


OCIE agrees with the need to have in place an auditing system for OCIE intranet sites and OCIE's
shared network drives. OCIE Technical Staff is currently working with OIT Staff to review the various
audit solutions and to determine the impact of those solutions on OCIE's current business practices. It is
expected that it may take some time to evaluate, test and implement a solution and also determine if
there is an impact on OCIE's current business processes.
